                    UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF INSPECTOR GENERAL




December 8, 2003


INSPECTION REPORT

To:                William Leidinger
                   Assistant Secretary
                   Office of Management

From:              Cathy H. Lewis
                   Assistant Inspector General
                   Evaluation, Inspection, and Management Services

Subject:           Emergency Evacuation of People with Disabilities in Department of
                   Education Facilities (ED/OIG I13C0017)

Executive Summary

This memorandum provides the results of our inspection of procedures for the
emergency evacuation from Department of Education (Department) occupied
buildings of Department employees and visitors with disabilities. Our inspection
objectives were (1) determine whether Occupant Emergency Plans (OEPs) for
Department-occupied buildings provide for the safe evacuation of Department
employees and others with disabilities; and (2) determine whether slow descent
devices are present and available for use in all Department-occupied buildings
for the evacuation of people with disabilities.

A draft of this report was provided to the Office of Management on November 5,
2003. Comments were due back December 5. None were received by the due
date; however, comments were received several days later and have been
included with this report.

Employee concerns about the evacuation of employees with disabilities in the
event of a catastrophic emergency surfaced in a Department-wide survey
conducted in October 2002 as part of an ongoing effort to increase Department
safety and security.

After the survey results were compiled, OIG posed a series of questions to OM
regarding identified employee concerns, including, “How can management
address the awareness issues and the needs of employees with disabilities with
respect to building safety and security?” The Office of Security Services (OSS)
in OM responded that each Occupant Emergency Plan (OEP) is designed to
                               400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                  www.ed.gov

        Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
OIG/Evaluations and Inspections         Inspection Report                       ED/OIG I13C0017



meet the needs of people with disabilities; that Slow Descent Devices (SDDs or
“evacuation chairs”) were installed in all Department facilities nationwide for the
evacuation of people with disabilities; and that OM/OSS had begun working with
employees with disabilities and others to develop a comprehensive policy to
standardize procedures for safely and effectively evacuating employees with
disabilities.1 OSS issued a bulletin that states that SDDs have been installed in
each of the Department’s facilities nationwide, along with written instructions and
that an abbreviated training program has been conducted.2 The Department also
provided similar information to the Office of Personnel Management (OPM) in
response to an OPM memorandum. 3

Because of concerns raised by employees in the Safety and Security survey and
because the information provided by OM was not consistent with information
from some Department employees with disabilities, OIG conducted additional
inspection activities to evaluate the apparent discrepancies.

As a result of our inspection, we determined that, especially since September 11,
2001, the Department, its managers and staff, and the Office of Security Services
have expended significant effort and resources to ensure the safety and security
of Department employees. However, we determined that in some cases
procedures and systems described in pertinent documents to address the needs
of people with disabilities during an emergency are inconsistent with conditions in
the facility in question. We determined that some OEPs contemplate the
availability of methods for communication that may not exist. Additionally,
evacuation drills and practices do not attempt to simulate real emergencies.
Although OM:2-104 states that OEPs for all Department-occupied buildings are
found on connectED, we determined that OEPs for several Department-occupied
buildings are not available on the site, and that two OEPs on connectED, while
minimally compliant with legal requirements for disability access to information
technology, are not readily accessible to users who are blind. We also
determined that there is no systematic procedure for identification of people who
may require assistance in exiting a Department-occupied building during an
emergency evacuation other than new employees who may identify their need for
assistance during their new employee orientation. Although SDDs have been
identified as central to Department emergency evacuation plans for employees
with disabilities, we determined that SDDs are not available in all Department-
occupied buildings or, if present, are not known to managers or to employees
with disabilities who may need to rely upon them. Further, we were not able to
establish that identified SDDs were maintained and tested or that employees
have been trained in their use.

1
 http://oigmis3.ed.gov/Misc/ReportIIJun03.html
2
 Update Bulletin #45 continues to be available on connectED:
http://connected.ed.gov/index.cfm?articleobjectid=2C86F8CB-8EF6-447F-95F992E09A9BE07A
3
 The Department initially was unable to provide us with a copy of this memorandum. We
obtained a copy from OPM, but it was not signed, dated or printed on departmental stationary.


                                               2
OIG/Evaluations and Inspections          Inspection Report                       ED/OIG I13C0017




To address these issues, we recommend that Security Services take immediate
and continuing steps to ensure that the following recommendations are
implemented:

    1. All current Occupant Emergency Plans should be thoroughly reviewed for
       currency and completeness and the procedures described for evacuating
       employees and others with disabilities should be tested.
       • Identified employees with disabilities should participate in the review of
           completed OEPs in the facilities in which they work.
       • All identified employees with disabilities should actively participate in
           testing the effectiveness of OEPs for their buildings.
       • Fully accessible copies of OEPs for every ED occupied building should
           be available in an easy to find location on connectED.
       • Areas of refuge should be clearly designated with signage, including
           Braille, and should be equipped with in place two-way communications
           devices. In GSA controlled facilities, the Department should contact
           GSA and resolve any inconsistency issues in signage.

    2. The Department’s inventory of SDDs should be verified; all existing SDDs
       should be tested and evaluated for replacement; and functional SDDs
       should be purchased as needed for all Department-occupied buildings
       • Consideration of existing SDDs for replacement, and consideration of
          purchasing one or more SDDs where none currently exist, should
          include individualized consideration of the building in question and of
          the impairments of employees who would need to use them in an
          emergency.
       • Before any existing SDDs are removed from service without being
          replaced, employees with disabilities who may have relied on their
          availability should be notified of the removal and informed of how they
          will be evacuated in the event of an emergency.

    3. At least once each year, all Department employees should be formally
       invited to identify themselves as requiring assistance in an emergency
       because of a disability or medical condition.4

    4. Also on a yearly basis, the Department should provide those requiring
       special assistance specific information on how they will be evacuated
       in an emergency.


4
  Although an employer may ask employees with known disabilities whether they require
assistance, self-identification should be invited periodically from all employees and not be based
on assumptions about whether or not an individual has a disability or medical condition requiring
such assistance. The EEOC has issued a Fact Sheet on Obtaining and Using Employee Medical
Information as Part of Emergency Evacuation Procedures.
http://www.eeoc.gov/facts/evacuation.html


                                                3
OIG/Evaluations and Inspections       Inspection Report                     ED/OIG I13C0017



    5. OM should recall its letter to OPM and inform Departmental staff of the
       erroneous information with which they have been provided.



Background

The Office of Management (OM) and the Office of Inspector General (OIG)
conducted a survey as a part of an ongoing effort to increase safety and security
at the Department in October 2002. Eight hundred sixty-five Department
employees responded. Responses represented 17% of Department employees,
in thirty public and private buildings in eleven states, Puerto Rico, and the District
of Columbia.

After the survey results were compiled, OIG posed a series of questions to OM
regarding identified employee concerns. One of the questions was, “How can
management address the awareness issues and the needs of employees with
disabilities with respect to building safety and security?” The Office of Security
Services in OM responded, on May 14, 2003, that each Occupant Emergency
Plan (OEP) is designed to meet the needs of people with disabilities and includes
provisions to address specific individuals and specific disabilities; that Slow
Descent Devices (SDDs or “evacuation chairs”) were installed in all Department
facilities nationwide for the evacuation of people with disabilities; and that
OM/OSS had begun working with employees with disabilities, with Principal
Office Representatives, and with other agencies to develop a comprehensive
policy to standardize procedures for safely and effectively evacuating employees
with disabilities.5 OSS also stated that it intended to provide the same
information to the Office of Personnel Management (OPM) in response to a
March 17, 2003, OPM memorandum, Security of the Federal Workplace. In
addition, in late March, OSS had issued a Safety and Security Bulletin, Update
Bulletin #45 (3/28/03), Summary of Department’s Security & Emergency
Preparedness Activities, which also stated that SDDs have been installed in each
of the Department’s facilities nationwide, along with written instructions and an
abbreviated training program.6

The Department’s Occupant Emergency Organizations and Plans Directive,
OM:2-104,7 outlines the policy and responsibilities for establishing and
implementing Occupant Emergency Organizations (OEOs) and Occupant
Emergency Plans (OEPs) within the Department. It applies to Department
employees located in both Headquarters and in the Regions, and states that

5
 http://oigmis3.ed.gov/Misc/ReportIIJun03.html
6
 Update Bulletin #45 continues to be available on connectED:
http://connected.ed.gov/index.cfm?articleobjectid=2C86F8CB-8EF6-447F-95F992E09A9BE07A
7
 OM:2-104 was issued on July 14, 2003, while OIG’s inspection was underway. It superceded
D:ADM:3-102, dated 07/23/1992.


                                             4
OIG/Evaluations and Inspections    Inspection Report                 ED/OIG I13C0017



Department policy is to take all steps necessary to minimize the impact on
Department employees of any disasters or emergencies. Under OM:2-104, the
Assistant Secretary for Management (ASM) has overall responsibility for the
Department’s emergency planning and implementation. Pursuant to delegations
from the ASM, the highest-ranking Department official in a Department-occupied
building is responsible for developing, implementing and maintaining an OEP or,
in buildings where the Department is not the primary tenant, for consulting with
the appropriate official of the primary tenant in the development, implementation,
and maintenance of the OEP. The Director of Security Services in OM is
responsible for assuring that each Department facility complies with the
requirements of an OEP. Security Services also provides guidance, assistance
and sample plans to Department officials to facilitate the development of OEPs.
Section 504 of the Rehabilitation Act of 1973 states that "no qualified individual
with a disability in the United States shall be excluded from, denied the benefits
of, or be subjected to discrimination under" any program or activity that is
conducted by, among others, any Executive agency. Section 501 of the
Rehabilitation Act prohibits the federal government, as an employer, from
discriminating on the basis of disability. Although the Americans with Disabilities
Act of 1990 (ADA) does not cover federal employees directly, as a result of
statutory amendments in 1992 section 501 incorporates by reference the ADA’s
standards relative to agencies’ treatment of federal employees with disabilities.

Federal employees with disabilities are entitled under the Rehabilitation Act to
the same level of safety as other employees. As with other aspects of
employment, reasonable accommodation for the disabilities of Department
employees may be necessary to ensure nondiscrimination with respect to their
enjoyment of a safe working environment and in planning for emergencies in the
work place.

Inspection Results

Objective 1: Determine whether Occupant Emergency Plans (OEPs) for
Department-occupied buildings reasonably provide for the safe and
nondiscriminatory evacuation of Department employees and others with
disabilities.

In general, the OEPs reflect a good-faith effort to develop plans that will
maximize the likelihood for the successful emergency evacuation of staff,
including people with disabilities. All of the OEPs contain provisions specifically
intended to ensure that employees and visitors with disabilities are safely
evacuated when other employees are evacuated from the building. However, we
did detect some significant issues that must be addressed.

Our inspection revealed that OEP and the signage used in stairwells is
inconsistent, thus, occupants may become confused as to which stairwell they
are to use in an emergency; DC Fire Department personnel have to rely on



                                          5
OIG/Evaluations and Inspections         Inspection Report                      ED/OIG I13C0017



building staff to inform them of all the locations of persons with disabilities
needing assistance; there are no two-way communication devices present in the
areas of refuge; there is no apparent mechanism to inform people with disabilities
of the status of their evacuation once monitors and floor wardens are gone;
people with disabilities have no opportunity to practice evacuations since they
are not evacuated during drills; several OEPs are not available on ConnectED;
and there do nor appear to be consistent processes or procedures in place to
identify individuals with disabilities who may need assistance during an
emergency evacuation.

OM:2-104 requires an Occupant Emergency Organization and an Occupant
Emergency Plan for every Department-occupied building. We reviewed OEPs
from FB6, Switzer, ROB3 and several Department-occupied buildings outside of
the District of Columbia. We also obtained information from people with
disabilities, staff expected to assist them, and members of OEOs.

An “area of refuge” or “area of rescue assistance” is a temporary staging area
that provides relative safety to its occupants while rescue operations are in
progress. The District of Columbia Fire Department (DCFD) and the United
States Fire Administration each include areas of refuge as one element of
emergency planning for the evacuation of people with disabilities.8

The Switzer Building EOP states, “designated ‘Areas of Refuge’ are located at
the stairwells on the main corridors of the building, at the head of the 100 and
600 corridors, and beside the main elevator lobbies at the 300 and 400 corridors.
These stairwells are clearly marked with signs, designating them as ‘Areas of
Refuge.’" On the fourth floor of Switzer, nine stairwells, including the four
identified in the EOP, have 8½ x 11 inch photocopied signs on the doors that
say: " NOTICE: This is a designated area of refuge in the event of an
emergency." ("Notice" is in red type, making it invisible to those who are
red/green colorblind, and no signs are in Braille.) OM stated that GSA put the
signs in place, not the Department. Regardless of who put them on the stairwell
doors, because the OEP and the signage on the stairwells are not consistent,
confusion on the part of visitors and employees with disabilities is likely.
Although the risk of such confusion is not limited to people with disabilities, most
non-disabled people can descend the “wrong” set of stairs and exit the building.
In contrast, people with mobility impairments and some other disabilities may find
themselves in the same “wrong” stairway, waiting for rescue. Emergency
personnel need to keep track not only of the four stairwells designated in the
OEP, each with four or more landings above ground level, but also of another
five stairwells with landings on each floor.



8
 United States Fire Administration, Emergency Procedures for Employees with Disabilities in
Office Occupancies, FA-154 (6/95); D.C. Fire and EMS Department, Evacuation Plan Guide,
(Undated, provided to OIG by the D.C. Fire Department on July 19, 2003).


                                               6
OIG/Evaluations and Inspections    Inspection Report                  ED/OIG I13C0017



U.S. Fire Administration guidelines state that areas of refuge should have
devices in place for two-way communications, with instructions for use. The
Switzer OEP states: “Two-way communications between the Command Center
and each Area of Refuge are available to keep the people located in these areas
informed of the status of the emergency and their evacuation.” We found no two-
way communications devices in any of the areas designated as areas of refuge
in the OEP or by signs in the building. OM stated that the U.S. Fire
Administration policy does not state that the two-way communication has to be
electronic, thus allowing voice communication in the stairwell to be the
Department’s communication methodology of choice. OIG disagrees on this
point. The policy states that there should be “devices” with “instructions for use,”
which would indicate that something more than vocal communication is intended.
Also, individuals with certain illnesses (such as multiple sclerosis or muscular
dystrophy) may have limited vocal capacity and be unable to indicate where they
are on a stairwell.

The OEP states that radio, telephone or runners are used to maintain
communications. Designated Stairwell Monitors are expected to report the
presence of people with disabilities remaining in the stairwell to the Floor Monitor
and to the Command Center. At the same time, their responsibilities include
leading occupants to safety, and exiting the building when the flow of traffic
ceases. Similarly, the Switzer OEP provides that Floor Wardens are to report the
location of disabled employees and visitors to the emergency command center
established on the first floor of the building, after which they are not to return to
their floors but are to leave the building. The OEP describes no mechanism by
which people with disabilities awaiting rescue will be kept informed “of the status
of the emergency and their evacuation” once the Stairwell Monitors and the Floor
Wardens have left.

DC Fire Department officials stated that its personnel are dependent on building
staff to inform them of the location of people with disabilities needing to be
rescued, and that successful evacuation of people with disabilities depends
largely on the ability of a particular building to give accurate information to the
responding emergency personnel.

In the Jackson Federal Building in Seattle, in which Department employees
occupy the 33rd and 28th floors, people with disabilities who are unable to
descend and exit without assistance, are directed to await rescue in one of two
stairwells. The floor warden on the 33rd floor was instructed to use the telephone
for two-way communications, including to report that people with disabilities are
awaiting rescue, but there is no telephone in the stairwell. Further, during and
after the Seattle earthquake in 2001, telephones were largely unusable because
no dial tone was available.

A key person under DM:2-104 and in Department OEPs is the Occupant
Emergency Coordinator for a facility. Under most Department OEPs, including



                                          7
OIG/Evaluations and Inspections           Inspection Report                        ED/OIG I13C0017



the Switzer Building’s, the Occupant Emergency Coordinator is responsible for
selecting, training (including scheduling drills) and organizing an adequate staff
to conduct emergency operations; and supervising the activities of the
Emergency Command Center Team. During an emergency, the Occupant
Emergency Coordinator reports to the Designated Official and keeps that person
apprised of events. The current and the previous Switzer Building OEPs, issued
in March 2003 and October 2001, respectively, both list the position of Occupant
Emergency Coordinator as Vacant.

According to Security Services, people with disabilities are not evacuated during
practice evacuations or drills. Instead, they stay in the area of refuge and then
return to their work area. The Occupant Emergency Coordinator is responsible
for reporting any deficiencies encountered during drills, including problems
experienced by individuals with disabilities and their assistants. When drills are
incomplete in this respect, relevant information is unavailable to members of the
building Occupant Emergency Organization about the effectiveness of its
planning for the evacuation of people with disabilities and, unlike other
employees, people with disabilities and those who assist them do not have an
opportunity to practice or familiarize themselves with the activities that would be
needed in the event of a real emergency.

OM2-104 requires the publication of all OEPs on connectED. At this time, plans
for several buildings occupied by Department employees are not available at that
location. For example, in both Boston and Seattle, OEPs are listed and linked for
only one of the two principal buildings occupied by large numbers of Department
staff. In addition, the OEP for the River Center in Chicago is missing floor plans
and evacuation routes for the floors occupied by the Department of Education
and other federal agencies in the privately owned building.9 Although these
omissions affect people without disabilities too, their impact is likely to be greater
for people with disabilities since many have little or no ability to rescue
themselves; they are wholly dependent for their safety and survival in an
emergency on the procedures in the relevant OEP.

Procedures for identifying people who, because of disability or physical
impairments, may require assistance in exiting a Department-occupied building
during an emergency evacuation are ambiguous and hit-or-miss. OEPs generally
do not include procedures for the identification of such people. According to
Security Services, identification depends on supervisors, who are likely only to
raise the issue with those for whom the need is self-evident or who have
requested accommodation for the impact of their disabilities on other aspects of
their work. Department supervisors generally are not trained to determine
whether employees have physical impairments that may be expected to interfere
with their ability to evacuate the building in an emergency. The omission is likely
to be especially true when employees themselves do not regard their medical

9
  The location in the emergency plan where this critical information should be says simply,
“(Pages 22 – 26 to be inserted: Plans for each of the federally occupied floors – 6, 8, 9, 10 & 11)”


                                                 8
OIG/Evaluations and Inspections     Inspection Report                    ED/OIG I13C0017



condition as a disability because it does not interfere with their ability to do their
jobs or to require reasonable accommodation in their work. Conditions such as
asthma and heart disease, while not disabling relative to job performance, can
prevent unassisted evacuation in an emergency.

Without significant improvements in the areas identified above, the individuals
with disabilities appear to be at significant risk should there be an actual
emergency.

Objective 2: Determine whether slow descent devices (SDDs) are available
for use in all Department facilities for the evacuation of people with
disabilities.

Our inspection revealed that, although SDDs have been identified as key
components of the Department’s planning for emergency evacuation employees
with disabilities, they are not available in all Department-occupied buildings, or, if
present, are not known to managers or employees with disabilities who may
need to rely on them. Further, we were unable to establish that identified SDDs
were maintained and tested, or that employees have been trained in their use.

Within the last six months, the Office of Management and more particularly
Security Services has stated on more than one occasion and has publicized to all
Department employees that Slow Descent Devices are available in all
Department buildings nationwide for the emergency evacuation of employees
with disabilities. In July 2003, Security Services told OIG that Headquarters
buildings in the DC area have four chairs per building and in the regions two per
building.

The Mary E Switzer Building has 5 floors above ground level, and 9 stairwells
accessible on each floor except the top one. OIG, with assistance from the
Building Manager, was able to locate three SDDs, in three different stair
landings. The current OEP for the Switzer Building does not identify SDDs as a
component of building plans for the evacuation of employees with disabilities.

The Department of Education Building (FB6) has 6 floors above ground level.
OIG identified six SDDs in different stairwells. The current OEP for FB6 does not
identify SDDs as a component of building plans for the evacuation of employees
with disabilities.

Current and former employees who worked in ROB3, including a senior manager
with a mobility impairment who could not exit the building unassisted in an
emergency, knew of no SSD in Department-occupied sections of the building or
in emergency exit routes designated for use by Department employees. The
current OEP for ROB3 does not identify SDDs as a component of building plans
for the evacuation of employees with disabilities.




                                           9
OIG/Evaluations and Inspections    Inspection Report                 ED/OIG I13C0017



Department managers of large regional staffs in Chicago and Seattle, each of
whom supervises employees with disabilities including mobility impairments, did
not know of and could not identify any SDDs in their buildings. The floor warden
for Department-occupied space in Seattle also did not know of an SDD. The
Chicago office leases space on the 10th floor of a private building. The Seattle
office in question is located on the 33rd floor of a large GSA-operated Federal
Building.

A Department manager in Denver works on the 3rd floor of a privately owned
building. The manager has a mobility impairment and ordinarily uses a scooter,
although she is able to walk, using crutches, with difficulty. No SDD is available
for her use. Her efforts and efforts of others to obtain one have not been
successful.

Between March and May 2003, Security Services reported to Department
employees, to OIG, and to the Office of Personnel Management that Secure
Descent Devices are a key component of Department efforts to ensure the safety
of people with disabilities in the event of emergency evacuation. In late April or
early May, however, Security Services recommended against the purchase of an
SDD for use by the previously described Denver employee.

In an interview held in July 2003, a Security Services staff member stated that
the SDDs purchased in 1993 are not reliable, and that Department staff were
never trained to use them.

The slow descent chairs located in the Switzer and FB6 Buildings are designed
so that a person assisting the person in control of the chair must physically weigh
more than the person who is being assisted, thereby eliminating many
colleagues including often an aide employed specifically to assist an employee
with a disability. In addition, the devices are not self-arresting—that is, if a
person assisting in an evacuation with the device were to lose his or her grip on
the controls, the device would continue to descend, out of control.

The Smithsonian Institution uses the same kind of SDD that is installed in the
Switzer Building. The devices are installed on every other floor, and are used by
some employees with disabilities during unannounced, live, drills designed to
simulate a real emergency evacuation as closely as possible. All employees and
all visitors are fully evacuated. The Safety Coordinator at the Smithsonian
reported no injuries or disruptions of evacuation drills attributable to use of the
devices, and that employees are trained to delay their descent until the major
flow of traffic has passed in the stairwell before using the chairs.

We found no record that the existing SDDs in Switzer or FB6 have been tested or
maintained in recent years, if ever. Although this type of SDD is supposed to be
maintenance free, the Smithsonian found through experience that they require




                                         10
OIG/Evaluations and Inspections      Inspection Report                     ED/OIG I13C0017



periodic inspection and routine maintenance to ensure that they can be used
when needed.

We also found no indication that existing SDDs in Switzer or FB6 have been
used in drills or training to simulate as closely as possible the conditions of a real
emergency, and Security Services told us that no training of employees in the
use of the devices has been conducted since they were purchased a decade
ago. Without such training, it is difficult to anticipate and plan for problems that
may arise, or to ensure that people with disabilities and those who may be
required to assist in an evacuation know what is expected with regard to using
SDDs.

The Federal Emergency Management Agency and the United States Fire
Administration include SDDs in technical assistance materials regarding the
evacuation of people with disabilities from office buildings. The United States
Architectural and Transportation Barriers Compliance Board (the Access Board)
purchased SDDs and includes them as part of its own OEP.10 The Department
of Housing and Urban Development, after careful evaluation of available options,
recently initiated the purchase of 123 SDDs for employees in its headquarters
offices. OSERS currently is evaluating several models of SDDs for use by
employees. The DC Fire Department advises that SDDs can be used when the
devices are available and employees have been trained to use them.

SDDs are not present in all buildings, and in those where they do exist, there
does not appear to have been adequate training or practice on how to use them
in the case of an emergency.

Conclusions

Department planning for the emergency evacuation of people with disabilities is
largely untested through drills or practices that reasonably simulate the
conditions of a real emergency. As a result, Occupant Emergency Plans
describe procedures that cannot be implemented at the various sites. Slow
descent devices have erroneously been promoted inside and outside the
Department as being available in all Department buildings for the emergency
evacuation of people with disabilities. The devices have not been adequately
inventoried or tested to ensure that the ones currently in place are in good
working order. There is no established procedure in the Department for the
identification of people who will require evacuation assistance. Locations
designated for people with disabilities and those assigned to remain with them to
await rescue lack means of communication with those coordinating rescue


10
   Access Board: Emergency Evacuation Plan, http://www.access-board.gov/evacplan.htm. See
also, The Access Board's Emergency Evacuation Plan: Background Information,
http://www.access-board.gov/evacplan-back.htm



                                           11
OIG/Evaluations and Inspections   Inspection Report                ED/OIG I13C0017



efforts. Those requiring assistance during an evacuation do not have specific
information on how they will be evacuated during an emergency.


Scope and Methodology:

This inspection evaluated the effectiveness of procedures for the emergency
evacuation of employees and others with disabilities from Department-occupied
buildings.

We conducted interviews with essential personnel within and without the
Department; gathered pertinent documents; reviewed applicable policies,
regulations, procedures, and pertinent literature; visited Department-occupied
buildings in the District of Columbia and regional offices, and another federal
agency’s facility. We also spoke to staff responsible for emergency planning for
people with disabilities in other federal agencies and to Fire Department
personnel. We focused our inspection on the Mary E. Switzer Building and
additionally reviewed information regarding five other Department-occupied
buildings: FB6, ROB3, the Jackson Federal Building in Seattle, and two privately
owned buildings in which the Department leases space, the River Center
Building in Chicago, and the Parkway Center in Denver.

This inspection took place during June-September, 2003.




                                        12
                        UNITED STATES DEPARTMENT OF EDUCATION
                                               OFFICE OF MANAGEMENT




December 8, 2003

Response to Draft Inspection Report

TO                :          Cathy H. Lewis
                             Assistant Inspector General
                             Evaluation, Inspection and Management Services

FROM              :          William J. Leidinger

SUBJECT           :          Response and Action Plan – Emergency Evacuation of People
                             with Disabilities in Department of Education Facilities (ED/OIG
                             I13C0017)


Executive Summary

The Office of Management (OM) appreciates the concern and the time spent assessing
the procedures for the evacuation of employees and visitors with disabilities. The draft
inspection report submitted by the Office of the Inspector General (OIG), dated
November 5, 2003, offers some insights on areas OM will consider in enhancing the
Department’s programs.

In response to the areas of concern in the OIG report the following general comments are
offered. The section that addresses areas of refuge and the use of Slow Decent Device’s
appears to be based on information obtained from the United States Fire Administration
(USFA) and the District of Columbia Evacuation Plan Guide. While these documents
may prove helpful as reference documents, they were not used to establish the guidelines
for the Department’s program. In addition, the use of SDD’s is not a requirement.
Current guidelines call for the designation of a safe location for disabled personnel, until
such a time as Fire or other Emergency service officials can safely evacuate them.

The ED program follows and is in compliance with the guidelines provided by the
following regulatory agencies – National Fire Protection Association (NFPA),
Uniformed Federal Accessibility Standard (UFAS), Americans with Disabilities Act
(ADA), Code of Federal Regulations (CFR) and other national guidelines recognized by
the General Services Administration. These guidelines ensure that accommodations
afforded to non-disabled employees are reasonably afforded to disabled employees.




                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
In this report the Inspector General (IG) has indicated that they have found indications of
inconsistency with information from disabled employees, OEP’s that were not current or
complete, inconsistent signage in buildings and other findings. However, the report does
not list the specific buildings or locations. Security Services looks forward to working
with the IG and gaining sufficient information to address the specific findings cited.

In response to the specific steps suggested in the report, the following comments are
offered:

   [1] Survey all Occupant Emergency Plans

         a. Each Occupant Emergency Plan (OEP) will be reviewed and those plans
            that ED has control over will be brought into compliance with government
            requirements. ED does not in all cases own many of the OEP’s where ED
            offices are located. A number of these OEP’s (13) are controlled by other
            agencies where ED is not the lead tenant. In these cases, the lead tenant is
            responsible for the development and maintenance of the OEP. The lead
            tenant has a responsibility to furnish a copy of their OEP to other tenants in
            the building.

         b. There are currently programs in place or are being developed in an effort to
            provide safety and security to all ED employees. Security Services is
            currently developing an awareness program for distribution to all ED
            employees. Security Services will develop and produce a condensed
            written guide, which specifies what to do when an emergency occurs. This
            guide when finished will be produced in written, Braille and audible
            formats to accommodate all ED employees. To assist in developing this
            guide, Security Services has assembled teams of employees, including
            those with disabilities to provide input to the staff.

         c. Security Services will review the OEP’s currently available on the web site,
            if any OEP’s are not found on the web, Security Services will make every
            effort to obtain the missing OEP’s. As done in the past, Security Services
            will make a written appeal for updates of Occupant Emergency Plans from
            Headquarters and Regional Facilities. In those instances where a
            Headquarters or Regional Facility does not have a plan, or the responsible
            individual (e.g. lead tenant) has difficulty developing a plan, Security
            Services provides a “boiler-plate” plan to assist in the completion of the
            task.

         d. Signage in all ED controlled building will be review for compliance with
            guidelines. In ED buildings signage not meeting the guidelines will be
            reported to GSA with the request for correct signage to be posted. In non-
          ED controlled buildings every attempt will be made to work with the
          building managers to ensure compliance.

          As previously stated, the Department’s program is in compliance with
          guidelines. None of the guidelines require the installation of two-way
          communication in existing construction. Security Services will continue to
          work with assessments completed on any new construction to ensure
          compliance with security and safety guidelines, including the applicability
          of two-way communication devices in areas of refuge.

[2] Locate all Slow Decent Devices in Headquarters and Regional Facilities

       a. Security Services will ask each Headquarters and Regional site to verify the
          location and condition of SDD’s in their facility. In order to fully and
          adequately address the issue of slow decent devices (SDD’s), there is a
          need to look at the history of these devices within the Department of
          Education. Approximately 15 years ago (1988-1989) the issue of SDD’s
          surfaced, at that time 32 of these devices were purchased and distributed
          within the Department of Education. Slow Decent Devices were purchased
          in 1990 for ED facilities in the Headquarters and Regional sites. At the
          time of procurement, it was determined and communicated that the Slow
          Decent Devices were for the use by local fire and rescue personnel. This
          was due to the type of equipment purchased and the liabilities recognized
          by the agency.

          As previously stated, the use of SDD’s is not mandated. However, Security
          Services, as explained below, is working with employees to evaluate and
          provide adequate evacuation procedures for all employees. Security
          Services provides periodic information, as well as updates based upon
          significant changes. As the evacuation program changes, Security Services
          will provide information to ED employees.

       b. The use of SDD’s in the Department is a complex issue in which numerous
          versions of the devices must be evaluated, differing building construction
          types must be accommodated, and numerous variations of disabling
          conditions require different types of SDD’s. Security Services, as the lead
          for the Office of Management, in concert with the Office of Special
          Education and Rehabilitative Services (OSERS) has initiated a program by
          which written guidelines have been drafted, SDD’s have been purchased
          and a training process is being developed. It is hoped that the program will
          culminate with a written Administrative Directive, which will outline how
          and when SDD’s shall be used, who will be qualified to use them, and
          under what authorities and protection this process can be implemented. In
        addition, Security Services will locate and inspect all SDD’s to ensure they
        are functional or removed from service if appropriate.

[3] Identify employees requiring assistance in an emergency

    a. Security Services will conduct an annual review of persons with
       disabilities, and invite others requiring assistance to identify themselves.

[4] Provide evacuation information annually

    a. Security Services provides evacuation and other safety information
       continuously on its website and through the Department’s e-mail system.
       When new information is available or changes are made, announcements
       are also made. In addition to this always-available information, Security
       Services will provide an annual reminder to employees to remind them
       where the information can be obtained.

[5] Provide accurate information

    Security Services will continue to provide periodic updates and information
    regarding changes in the program to Department staff and other external
    offices, including OPM. In addition to the methods of information
    dissemination discussed above, Security Services conducts “town hall”
    meetings at Headquarters locations and Regions.
